           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
    ADMINISTRATION’S PROGRAM
     FOR ISSUING REPLACEMENT
      SOCIAL SECURITY CARDS
           TO PRISONERS

      July 2006   A-08-06-16025




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   July 13, 2006                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration‘s Program for Issuing Replacement Social Security
        Cards to Prisoners (A-08-06-16025)


        OBJECTIVE
        Our objective was to review the Social Security Administration's (SSA) program for
        issuing replacement Social Security cards to prisoners. Specifically, we (1) examined
        SSA’s compliance with policies and procedures when processing prisoner replacement
        Social Security number (SSN) applications at field offices and (2) determined whether
        vulnerabilities existed in the program that may have allowed prisoners to obtain a
        replacement Social Security card under an alias or false identity.

        BACKGROUND
        As part of their pre-release programs, some Federal, State, and/or local prisons assist
        prisoners in obtaining replacement Social Security cards. Prison officials with whom we
        spoke believed prisoners need Social Security cards to (1) obtain other necessary
        documents, such as driver’s licenses; (2) seek employment; and (3) better assimilate
        into society. However, prisoners may not always have access to their original SSN
        cards. To assist prisoners in obtaining replacement SSN cards, SSA allows field offices
        to enter into written agreements or Memorandums of Understanding (MoU) with
        prisons. 1 These agreements outline specific policies and procedures for processing
        prisoners’ replacement card applications and ensuring SSN integrity and security.




        1
         SSA’s policies and procedures for processing replacement cards for prisoners are set forth in its
        Program Operations Manual System (POMS), section RM00206.076. Additional policies regarding
        evidence of identity for an SSN card are found in section RM 00203.200.
Page 2 - The Commissioner


SSA’s procedures for processing prisoner replacement card applications involve prisons
submitting to the servicing field office a Form SS-5, Application for a Social Security
Card, completed by the prisoner. 2 Additionally, SSA instructions state the following.

         FO [sic] employees must personally review and certify the evidence required
         to process the SS-5. An original identity document, a copy of the original
         prison record certified to be accurate by the custodian of the record, or
         documents (including photocopies of prison records made by the custodian)
         forwarded directly from the custodian of the record to SSA are valid.
         Acceptable prison records may include the pre-sentence investigative report,
         profile data printout, or sentence data summary . . . A letter from a prison
         official verifying the identity of the applicant is not acceptable. However, a
         letter on the prison's letterhead whereby the authorized prison official
         certifies as to having extracted pertinent information from the inmate's official
         prison record is acceptable. FOs [sic] should maintain for comparison a list
         of names and current signature samples of the prison employees who will
         certify the copy of the prisoner record. (Emphasis added in italics.) 3

Field offices are also required to perform periodic on-site inspections to ensure prisons
are complying with SSA policies and procedures for submitting replacement SSN
applications and securing SSN cards. 4

The Intelligence Reform and Terrorism Prevention Act of 2004 (Public Law 108-458,
Section 7213(a)(1)(B)) (IRTPA) requires that SSA establish minimum standards for
verification of documents or records submitted by applicants to establish eligibility for
original or replacement SSN cards. In accordance with this requirement, effective
December 17, 2005, SSA issued new requirements for identity documents presented
with original and replacement SSN applications. Generally, acceptable identity
documents must show the applicant’s name, identifying information, and a recent
photograph. If the applicant is a U.S. citizen, the applicant must present a
(1) U.S. driver’s license; (2) State-issued nondriver identity card; or (3) U.S. passport. If
the applicant does not have these documents or cannot get a replacement for them
within 10 days, SSA will ask to see other documents, including an employee
identification card; a school identification card; a health insurance card (not a Medicare
card); a U.S. military identification card; or an adoption decree. 5

In light of the more stringent requirements for applicants to prove identity—and the fact
that many prisons/prisoners do not have access to such identity documents—SSA is
examining how it will meet IRTPA standards and assist prisons in obtaining replacement
cards for its prisoners. While studying this issue, the Agency placed a moratorium on

2
  SSA policy (POMS, section RM 00206.076B) restricts prisoner SSN applications to U.S. citizens
requesting a replacement SSN card with no identifying information changes.
3
    POMS, section RM 00206.076C.2.
4
    POMS, section RM 00206.076C.4.
5
    POMS, section RM 00203.200.
Page 3 - The Commissioner


the execution of any new MoU but allowed field offices to continue assisting prisons with
which they have ongoing agreements.

We reviewed SSA policies and procedures for processing prisoner replacement SSN
applications. We interviewed representatives from SSA’s Offices of Public Service and
Operations Support and Income Security Programs. We contacted personnel at SSA’s
10 regional offices and obtained a list of written agreements/MoUs with prisons. To
evaluate compliance with SSA policies and procedures, we visited seven field offices in
three SSA regions. At each field office, we met with management and staff responsible
for processing prisoner replacement SSN applications. We also visited 11 prisons
serviced by these field offices and (1) met with officials responsible for submitting SSN
applications, (2) performed limited tests of prison records supporting SSN applicant
identity information, and (3) observed how officials secured SSN cards. Additionally, we
called eight other SSA field offices to determine whether they were processing prisoner
replacement card applications, and, if so, whether they were doing so under an
approved MoU. We also reviewed 95 SSN applications submitted by these prisons and
processed by the servicing field offices from October through December 2005.
Appendix B includes a detailed description of our scope and methodology.

RESULTS OF REVIEW

We are concerned that vulnerabilities exist that may allow prisoners to improperly obtain
a replacement Social Security card. To its credit, SSA has instituted policies and
procedures to prevent such occurrences. Nonetheless, we believe these procedures
can only be effective if both SSA and prison personnel comply with established controls
to ensure the prisoners’ true identities. Additionally, we are concerned that SSA policies
may provide a lesser burden for prisoners to prove identity than the general population.

Our review disclosed that some SSA field offices processed prisoner replacement card
applications without the required written agreements/MoUs. In fact, we were
unsuccessful in obtaining a reliable inventory of agreements one region had in effect
with prisons during our audit period. We also noted that some field offices and prisons
processed replacement card applications without sufficient evidence of prisoner identity.
Further, field offices did not always periodically perform on-site inspections of prison
procedures for submitting SSN applications and required evidence.

Finally, policies SSA implemented in response to IRTPA legislation require that SSN
applicants produce specific identity documents before a replacement card application
can be approved. 6 However, prisoners—through prison/SSA agreements—are not
always required to produce such documents. Rather, SSA allows authorized prison
officials to certify they have extracted relevant information from the official prisoner
record; thereby delegating the responsibility for establishing the applicant’s identity to
prison personnel. While some prison officials may attempt to comply with this
requirement, we observed that some do not. Given that prisoners may use aliases

6
    POMS, section RM 00203.200.
Page 4 - The Commissioner


and/or stolen identities in their criminal endeavors—and may be in prison under an
alias—establishing a prisoner’s true identity can be challenging. Should SSA elect to
continue this program, we believe it should take additional measures to ensure the
integrity of prisoner identity documents.

Some Field Offices Processed Replacement Social Security Card Applications
Without Required Written Agreements

SSA policies and procedures require that field offices have written agreements/MoUs
with prisons to ensure the quality and security of the replacement card issuance
process. 7 However, we determined that some field offices processed applications on
behalf of prisons/prisoners without such agreements. Additionally, one SSA region
could not provide a reliable inventory of agreements (formal or informal) it had in place
during our audit period. For example, 6 of the 15 field offices we contacted (7 visited
and 8 telephoned) did not have such agreements. Representatives from SSA’s Office
of Income Security Programs acknowledged that SSA policy requires that field offices
have written agreements/MoUs with prisons to ensure the integrity and security of the
prisoner replacement SSN cards issued.

Several of the field office managers and supervisors we interviewed told us they
processed prisoner replacement card applications without written agreements/MoUs
because it had become office practice to do so. Other field office managers did not fully
understand SSA’s policy regarding written agreements. SSA representatives in one
region acknowledged they neither emphasized the need for field offices to obtain written
agreements/MoUs with prisons nor maintained a complete list of field offices processing
prisoner replacement card applications.

Field Offices Did Not Always Adequately Review and Certify the Evidence SSA
Requires to Process Replacement SSN Applications

SSA policies and procedures require that field office personnel review and certify
evidence submitted with prisoner replacement SSN applications. For example, SSA
policy instructs field office personnel not to process replacement card applications if
they discover conflicting or insufficient data. 8 However, based on our review of
95 replacement card applications, we determined that field office personnel processed
4 applications that contained inconsistencies in dates of birth and parents’ names. In
fact, SSA issued one of these replacement cards under the wrong SSN and name,
thereby increasing the potential of SSN misuse and identity theft.

Based on discussions with field office personnel, we identified additional instances of
noncompliance with policies and procedures for reviewing and certifying prisoner
identity evidence. Personnel in one field office accepted copies of prisoner identification
badges as evidence of identity—with no accompanying letter from an authorized prison

7
    POMS, section RM 00206.076B.
8
    POMS, section RM 00206.076C.3(c).
Page 5 - The Commissioner


official certifying they had extracted pertinent information from the prisoner’s record.
Another field office accepted a letter from a prison official only certifying he had verified
that the prisoner’s name on the SSN application matched the name on his prisoner
identification badge. In both cases, the badges did not contain identifying information,
such as date and place of birth and parents’ names. As such, SSA did not have
assurance it issued the replacement SSN cards to the correct individuals.

SSA policy and procedures also require that field offices maintain a list of names and
current signature samples of prison employees authorized to certify prisoner identity
and submit SSN applications. 9 However, three field offices we visited did not maintain
the required signature list; two maintained such a list, but personnel did not routinely
use it when processing SSN applications; and another field office did not maintain an
up-to-date signature list. As such, SSA did not have assurance that prisoner
replacement SSN applications it received were from authorized prison personnel.

Prison Officials Did Not Always Adequately Review and Certify Prisoner Identity
Information Submitted with Replacement Card Applications

SSA allows authorized prison officials to certify they have extracted relevant information
from the official prisoner record, thereby delegating the responsibility for verifying the
SSN applicant’s identity to prison personnel. While some prison officials may attempt to
comply with this requirement, we observed some do not. Without compliance with SSA
policies and MoU terms to ensure prisoner identity, SSA could issue a replacement card
to the wrong individual. We believe this is especially important because prisoners may
have a stronger motive than the general population to assume a new identity and, once
released, hide their criminal record.

Of the 95 replacement SSN applications we reviewed, 66 certifications were not
submitted on the required prison letterhead. 10 We also identified five replacement SSN
applications that did not include the inmate’s Department of Corrections number, as
required by SSA policy. 11 Further, as previously stated, two of the prisons we visited
submitted replacement SSN applications on behalf of prisoners without certifying they
had extracted required identifying information from the prisoners’ files. More disturbing,
the prison officials responsible for submitting the prisoner replacement card applications
at these two prisons told us they did not have access to prison records containing
identity information; therefore, they could not certify the prisoners’ identities.

Officials at several prisons also did not disclose all aliases and other SSNs used by
prisoners, as required by SSA policy. For example, at one Federal prison we visited,
prison officials certified they had extracted all required information from the prisoners’
official files. However, we determined they did not always include known aliases.

9
    POMS, section RM 00206.076C.2.
10
     POMS, section RM 00206.076C.3(b).
11
     POMS, section RM 00206.076C.3(a).
Page 6 - The Commissioner


Additionally, these officials did not always detect discrepancies between identity
information provided by the prisoner on the SSN application and information in the
prisoner’s official record. The following example illustrates the vulnerability that exists
when prison officials do not comply with SSA requirements.

          At one Federal prison, we found that a prisoner had submitted a replacement
          card application under one name, which did not match the name under which he
          was in prison, and signed the application in yet a third name. When we
          examined his prison record, we noted that he previously used 29 aliases, 3 dates
          of birth, 2 places of birth, 6 SSNs and 3 State driver’s license numbers.
          However, the prison did not share any of this information with the SSA field office
          when it forwarded the SSN application—as required by SSA policy. This
          application had not been processed by the field office and the manager returned
          it to the prison during our visit.

In this case, prison officials told us they would begin reporting all aliases and
other SSNs used by prisoners requesting replacement cards. However, without
proper controls, compliance and monitoring, we are concerned that SSA’s
delegation of authority to prisons may result in improper enumerations.

Field Offices Did Not Periodically Perform On-site Reviews of Prison Procedures
for Submitting Replacement SSN Applications and Required Evidence

SSA policies and procedures require that field offices periodically perform on-site
inspections of prison procedures for submitting SSN applications and required
evidence. 12 However, four of the seven field offices we visited had not conducted
on-site inspections to ensure SSN integrity and security. The remaining field offices
generally conducted on-site inspections every 2 to 4 years.

Several of the field office managers and supervisors told us they did not see the need to
perform on-site reviews. Others stated they did not perform such reviews because of
other workload demands. Nevertheless, field offices are responsible for monitoring
prisons to ensure full compliance with prisoner replacement SSN application policies
and procedures. We believe that, because SSA has delegated the certification of
prisoner identity to prison officials, it has a responsibility to ensure prisons comply with
established procedures. In addition to identifying prison noncompliance, we believe
routine monitoring by SSA officials may have identified such vulnerabilities, as follows.

          One prison employee told us that prison officials routinely distributed copies of
          SSN cards to prisoners. After discussing how this practice could result in SSN
          misuse and identity theft, prison officials told us they would immediately stop this
          practice.

SSA has taken steps in several regions to improve field office monitoring of prison
compliance with MoU terms. In 2005, SSA signed two MoUs that required field offices
to perform annual on-site reviews of prisons. One of these MoUs required that field

12
     POMS, section RM 00206.076C.4.
Page 7 - The Commissioner


offices review a sample of replacement SSN applications to verify prisoners’ identities.
The other MoU required that field offices report instances of prison noncompliance with
Agency policies and procedures to regional office personnel. We believe such best
practices help ensure SSN integrity and security.

Prisoner Enumeration Policies Were not Consistent with New Identity Standards

Current enumeration policies provide prisoners a lesser burden in proving their identities
to obtain a replacement SSN card than the general population. Specifically, because
prisoners or prisons may not have access to required identity documents, such as
passports or drivers’ licenses, SSA is relying on the prisons to examine background
information in the prisoners’ official records to establish identity. The reliability and
thoroughness of such records may vary widely among prisons and prison systems.

Many of the prisons we visited did not attempt to obtain or maintain prisoner passports,
drivers’ licenses, birth certificates, SSN cards or other identity documents. Officials at
two of the prisons stated they deemed such documents to be “escape paraphernalia,”
which could not be housed on the prison grounds. Accordingly, unless these prisons
change their positions, such documents would not be available for submission to SSA to
support a replacement card application—as required by new IRTPA standards. 13

The prisons we visited relied on various practices to establish a prisoner’s identity upon
entering the facility. However, most were required to use the name/identity established
by the courts during sentencing. Some prisons also conducted pre-sentencing or
pre-intake background investigations for prisoners. While the depth of such
investigations and the amount of information contained in the resulting reports may vary
among prisons, these reports may prove helpful in establishing identity in lieu of
traditional identity documents. Other information regarding prisoner identity that may be
housed at a prison and may be useful in the enumeration process includes prisoner
profiles, National Crime Information Center reports, and/or “rap sheets.”

Because the information available and the extensiveness of the pre-sentencing
investigations may differ between prisons, we encourage SSA to review prison practices
before executing any new MoUs. Specifically, we believe SSA field offices should visit
the prison, review its policies and practices for establishing prisoner identity, and assess
how the prison intends to ensure compliance with SSA policies before it determines an
MoU is appropriate.

In December 2005, shortly after SSA implemented section 7213 (a) (1) (B) of IRTPA,
which established minimum standards for verification of documents or records, the
Agency turned its attention to improving the prisoner enumeration process. A
workgroup was formed to consider effective and secure ways of issuing replacement
SSN cards to this difficult population and thereby help prisons successfully integrate
prisoners back into society at the completion of their prison terms. This group was
working on improvements while our audit was underway. SSA has expressed its
13
     POMS, section RM 00203.200.
Page 8 - The Commissioner


appreciation for the valuable information and recommendations supplied by this audit.
The Agency stated it expects this report to be useful in helping it craft solutions in this
challenging area. We are encouraged by these Agency initiatives.

CONCLUSION AND RECOMMENDATIONS
Despite SSA’s controls to prevent improper SSN card issuance to prisoners, the Agency
is at-risk to such activity when field office and prison personnel do not fully comply with
policies and procedures. We recognize that SSA’s efforts can never eliminate the
potential that prisoners may inappropriately acquire and misuse replacement SSN
cards. Nonetheless, we believe SSA has a stewardship responsibility to ensure
compliance with all policies and procedures. We believe SSA would benefit by taking
additional steps to strengthen SSN integrity and reduce its risk of exposure to improper
SSN card issuance and misuse and identity theft.

Accordingly, we recommend that SSA:

1. Perform a review at each prison with which it is considering executing an MoU to
   ensure its procedures for establishing prisoner identity are sufficient to ensure SSN
   integrity and compliance with the intent of IRTPA.

2. Consider requiring that prisons submit copies of pre-sentencing background
   investigation reports (or other available information from the official prison record) to
   the SSA field office with the prisoner’s replacement SSN card application. Such a
   measure would assist SSA field office personnel in reviewing the validity of the
   prisoner's identity.

3. Identify field offices nationwide that are processing prisoner replacement SSN
   applications and ensure they are doing so under approved written
   agreements/MoUs.

4. Reemphasize to field office personnel the importance of following all policies and
   procedures when processing prisoner replacement SSN applications.

5. Require that field offices perform annual onsite reviews of prison procedures for
   submitting prisoner replacement SSN applications and required evidence and take
   corrective action as needed.
Page 9 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
IRTPA   Intelligence Reform and Terrorism Prevention Act of 2004
MoU     Memorandum of Understanding
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security Number
                                                                               Appendix B

Scope and Methodology
To achieve our objective, we reviewed the Social Security Administration’s (SSA)
policies and procedures for processing prisoner replacement Social Security number
(SSN) applications. We interviewed representatives from SSA’s Offices of Public
Service and Operations Support and Income Security Programs. We contacted
personnel at SSA’s 10 regional offices and obtained a list of written agreements/
Memorandums of Understanding with prisons. To evaluate compliance with SSA
policies and procedures, we visited 11 prisons and 7 field offices in 3 SSA regions. We
also called eight other field offices to determine whether they were processing prisoner
replacement card applications, and, if so, whether they were doing so under an
approved Memorandum of Understanding. We selected prisons based on prisoner
populations and types of prisons (Federal/State/local). Table 1 shows the prisons and
field offices we visited.

                       Table 1: Prisons and Field Offices Visited

                              Prison                          Field Office
              State Correctional Institute, Mahanoy           Pottsville, PA
                 *FCI Allenwood - Low Security                Sunbury, PA
               FCI Allenwood - Medium Security                Sunbury, PA
                  FCI Beaumont - Low Security                Beaumont, TX
                FCI Beaumont - Medium Security               Beaumont, TX
                         #
                          USP Beaumont                       Beaumont, TX
                           Gist State Jail                   Beaumont, TX
                        Lychner State Jail                    Houston, TX
                    San Quentin State Prison                 San Rafael, CA
                 California State Prison, Solano              Fairfield, CA
                           #
                            USP Atwater                       Merced, CA
                                                       #
               *FCI - Federal Correctional Institute   USP – United States
                                        Penitentiary

At each field office, we interviewed management and staff responsible for processing
prisoner replacement SSN applications. At each prison, we interviewed officials
responsible for submitting SSN applications and required evidence, performed limited
tests of official prison records supporting SSN applicant identity information, and
observed how prison officials secured SSN cards. In addition, we reviewed SSN
applications submitted by prisons and processed by field offices from October through
December 2005 to assess compliance with SSA policies and procedures. Our tests of
internal controls over this process were limited to gaining an understanding of the
program and performing the audit steps identified above.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We conducted our work from August 2005 through March 2006 in accordance with
generally accepted government auditing standards.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      June 28, 2006                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Program for Issuing Replacement Social Security Cards to Prisoners" (A-08-06-16025)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                       C-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S PROGRAM FOR ISSUING
REPLACEMENT SOCIAL SECURITY CARDS TO PRISONERS”
(A-08-06-16025)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of the Social Security Administration’s (SSA) program for issuing
replacement Social Security number (SSN) cards to prisoners. The report acknowledges SSA's
efforts to ensure effective and safe methods to comply with law, while simultaneously providing
service to prisons that are helping inmates integrate back into society at the end of their prison
terms.

Recommendation 1

SSA should perform a review at each prison with which it is considering executing a
Memorandum of Understanding (MoU) to ensure its procedures for establishing prisoner identity
are sufficient to ensure SSN integrity and compliance with the intent of the Intelligence Reform
and Terrorism Prevention Act of 2004.

Comment

We agree. The Agency has formed a workgroup to address this recommendation and other
issues dealing with the enumeration of prisoners. The workgroup will provide the appropriate
support to implement this recommendation.

Recommendation 2

SSA should consider requiring that prisons submit copies of pre-sentencing background
investigation reports (or other available information from the official prison record) to the SSA
field office with the prisoner’s replacement SSN card application. Such a measure would assist
SSA field office personnel in reviewing the validity of the prisoner's identity.

Comment

We agree with the intent of this recommendation. Many prisoners are arrested under identities
that differ from their true identity. As such, the pre-sentencing background investigation reports
and the prison record does not contain evidence of the same probative value that we ask the
public to present when they apply for replacement SSN cards at the field offices. SSA has
formed a workgroup to address the challenging issues with enumeration of prisoners. The
workgroup is now exploring the feasibility of carrying out this recommendation nationwide.
Initial contacts with several prison officials indicate that there could be legal restrictions in some
jurisdictions that would prevent prisons from sharing certain types of records with SSA. The
workgroup expects to identify a comprehensive set of solutions, including incorporating to the
extent feasible this OIG recommendation, by the end of September 2006.

Recommendation 3


                                               C-2
SSA should identify field offices nationwide that are processing prisoner replacement SSN
applications and ensure they are doing so under approved written agreements and MoUs.

Comment

We agree. See response to Recommendation #1 above.

Recommendation 4

SSA should reemphasize to field office personnel the importance of following all policies and
procedures when processing prisoner replacement SSN applications.

Comment

We agree. See response to Recommendation #1 above.

Recommendation 5

SSA should require that field offices perform annual onsite reviews of prison procedures for
submitting prisoner replacement SSN applications and required evidence and take corrective
action as needed.

Comment

We agree in principle; periodic onsite reviews of prisons would be a good idea. The prisoner
enumeration workgroup is still looking at this issue to determine what is practicable given the
limited resources in the regional and field offices.




                                             C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1605

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Kenley Coward, Program Analyst

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-06-16025.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
